OIG Audit Report GR-70-09-003

Compliance with Standards Governing Combined DNA Index System Activities at the Maine State Police Crime Laboratory, Augusta, Maine
Audit Report GR-70-09-003
March 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office  of the Inspector General has completed an audit of compliance with standards  governing Combined DNA Index System (CODIS) activities at the Maine State  Police Crime Laboratory (Laboratory). The Federal Bureau of Investigation’s (FBI) CODIS  program blends forensic science and computer technology to provide an  investigative tool to  federal, state, and local crime laboratories in the United States, as well as those  from selected international law enforcement agencies.  The CODIS  program allows laboratories to compare and match DNA profiles electronically to  assist law enforcement in solving crimes and identifying missing or  unidentified persons.1 The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI implemented CODIS as a distributed database with  hierarchical levels that enable federal, state, and local crime laboratories to  compare DNA profiles electronically.  The  hierarchy consists of three distinct levels that flow upward from the local  level to the state level and then, if allowable, the national level.  NDIS, the highest level in the hierarchy, is  managed by the FBI as the nation’s DNA database containing DNA profiles  uploaded by law enforcement agencies across the United States.  NDIS enables the laboratories participating  in the CODIS program to electronically compare DNA profiles on a national  level.  The State DNA Index System (SDIS)  is used at the state level to serve as a state’s DNA database containing DNA  profiles from local laboratories and state offenders.  The Local DNA Index System (LDIS) is used by  local laboratories.
The objectives of our  audit were to determine if the:  (1)  Laboratory was in compliance with NDIS participation requirements; (2)  Laboratory was in compliance with Quality Assurance Standards (QAS) issued by  the FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases  were complete, accurate, and allowable for inclusion in NDIS.
We  determined that the Laboratory was generally in compliance with those standards  governing CODIS activities that we reviewed.   However, we noted some exceptions during our review.  Specifically, we noted the following.

We tested 8 of  a total 52 NDIS matches and found that in 2  of the 8 cases, the candidate matches were not confirmed in a timely manner.  In addition, the  Laboratory received an external evaluation in March 2008 and the evaluation  resulted in four findings.  We found that  although Laboratory officials forwarded the evaluation report to the NDIS  Custodian within the 30-day timeframe, the  Laboratory did not forward its response to the evaluation report’s findings,  nor did it include any corrective action plans and documents.  The Laboratory complied with the other areas  of the NDIS procedures that we reviewed.
We found that  the Laboratory complied with all of the quality assurance standards we  reviewed.
We tested 100  of the Laboratory’s 1,766 total forensic profiles, as of June 17, 2008, and we  found 82 profiles were complete, accurate, and allowable.  We took issue with 18 of the Laboratory’s  profiles because the profiles were not properly supported with casework documentation, were unallowable, or were  incomplete. Laboratory officials  took action during our audit to retain 5 of the 18 profiles in NDIS,  including the addition of casework to the profiles and uploading missing loci  for one profile.  Of the 13 unallowable  or incomplete profiles remaining, 2 matched persons other than the perpetrator,  3 could not be potentially attributed to a putative perpetrator, and the  Laboratory could not provide adequate casework documentation to support the  inclusion of 8 profiles in NDIS.2

We  made three recommendations to address the Laboratory’s compliance with  standards governing CODIS activities, which are discussed in detail in the  Findings and Recommendations section of the report.  Our audit scope and methodology are detailed  in Appendix I of the report and the audit criteria are detailed in Appendix II. 
We  discussed the results of our audit with Laboratory officials and have included  their comments in the report as applicable.   As a result of our audit, Laboratory officials removed 13 profiles from  NDIS, uploaded the missing loci of 1 incomplete profile, and obtained  additional casework documentation to justify the inclusion of 5 profiles in  NDIS.3
In  addition, we requested a written response to a draft of our audit report from  the Laboratory and the FBI.  In its  response, Appendix IV of this report, the Laboratory agreed with our findings  and recommendations.  In its response,  Appendix V of this report, the FBI stated that it was in contact with the  laboratory to address our recommendations, and as a result our recommendations  are resolved.   Our analysis of the responses, and the actions  necessary to close the report are contained in Appendix VI of this report.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9-percent of human DNA is the same for all people.  The differences found in the remaining  0.1-percent allow scientists to develop a unique set of DNA identification  characteristics (a DNA profile) for an individual by analyzing a specimen  containing DNA.
One of the unallowable profiles we identified  was also incomplete.
One of the 5 profiles where  documentation was added, also was the profile with the missing loci.





 




Return to OIG Home Page